Credit Card Agreement for SaksFirst Store Cards in Capital One, N.A.
There are two parts to this Credit Card Agreement: Capital One Pricing Information and the Capital One Customer
Agreement. The Pricing Information shows a range of terms that includes both mail and online offers for new accounts
available under this Agreement as of June 30, 2021. The combination of terms that could apply to you may differ depending
on the specific card offer and on your creditworthiness at the time of application. The Customer Agreement contains
important information related to consumer credit cards issued by Capital One, N.A. If you are a current Capital One
cardholder, please log in to your account if you would like to request the Credit Card Agreement for your account(s).
CAPITAL ONE PRICING INFORMATION
Annual Percentage Rate
(APR) for Purchases

23.99%.

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each Billing Cycle. We will not charge you
interest on new purchases, provided you have paid your previous balance in full by the due
date each month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Annual Fee

None.

This APR will vary with the market based on the Prime Rate.

Penalty Fees
• Late Payment

Up to $40.

How Do You Calculate My Balance? We use a method called “average daily balance (including new transactions)”. See the
“How Do You Calculate the Interest Charge?” section.
What Are My Billing Rights? Information on your rights to dispute transactions and how to exercise those rights is provided
in the “Billing Rights Summary” on your Statement and other Truth-in-Lending Disclosures.
THINGS YOU SHOULD KNOW ABOUT THIS CARD
How Do You Calculate My Variable Rates? Your variable rates may change when the Prime Rate changes. We calculate
variable rates by adding a percentage to the Prime Rate published in The Wall Street Journal on the 25th day of December,
March, June and September. If the Journal is not published on that day, then see the immediately preceding edition. Variable
rates will be updated quarterly and will take effect on the first day of your Billing Cycle which begins in January, April, July and
October: Purchase APR: Prime plus 20.74%. Any increase in the Prime Rate may increase your Interest Charges and your
Minimum Payment.
What Are The Daily Periodic Rates Used To Calculate My Interest? The daily periodic rate for your Purchase APR is
0.06573%. See the “How Do You Calculate the Interest Charge?” section.
How Do You Calculate The Interest Charge? We use a method called Average Daily Balance (including new transactions).
Under this method, we first calculate your daily balance; for each Credit Plan, we 1) take the beginning balance and add in
new transactions and the periodic interest charge on the previous day’s balance, then 2) subtract any payments and credits
for that Credit Plan as of that day. The result is the daily balance for each Credit Plan. However, if you paid your previous
month’s non-promotional purchases balance in full (or if your balance was zero or a credit amount), new transactions which
post to your purchase or special purchase Credit Plans are not added to the daily balances. Also, transactions subject to a
grace period are not added to the daily balances.
Next, to find your Average Daily Balance we: 1) add the daily balances together for each Credit Plan, and 2) divide the sum by
the number of days in the Billing Cycle.
At the end of each Billing Cycle, we determine your Interest Charge as follows: 1) multiply your Average Daily Balance by the
daily periodic rate (APR divided by 365) for each Credit Plan other than Same As Cash Credit Plans, and 2) multiply the result
by the number of days in the billing period. For Same As Cash Credit Plans, if interest is applied, the interest is accrued from the
transaction date of the purchase through the current Billing Cycle. The Interest Charge for Same as Cash Credit Plans is the total of:
• the applicable daily periodic rate (APR divided by 365) for the current Billing Cycle times the daily balance for each day in the
current Billing Cycle; plus
• the applicable daily periodic rate for each prior Billing Cycle times the daily balances of the Credit Plan for each day during each
prior Billing Cycle.
We add the Interest Charges for all Credit Plans together. The result is your total Interest Charge for the Billing Cycle.
NOTE: Due to rounding or a minimum interest charge, this calculation may vary from the Interest Charge actually assessed.

© 2021 Capital One. Capital One is a federally registered service mark. All rights reserved. Products and services offered by
Capital One, N.A. Capital One supports information privacy protection: see our website at www.capitalone.com.

Capital One® Customer Agreement
Welcome to Capital One

(2) You must sign the Card immediately when you receive it.
(3) You must return the Card to us or destroy it if we ask
you to.
(4) You must take reasonable steps to prevent the
unauthorized use of your Card and Account.
(5) We may decline to authorize a transaction for any
reason. This may occur even if the transaction would
not cause you to go over your credit limit or your
Account is not in default.
(6) We are not responsible for any losses you incur if we do
not authorize a transaction.
(7) We are not responsible for any losses you incur if
anyone refuses to accept your Card for any reason.
(8) You must not use, or try to use, the Card for any illegal
activity. You are responsible for any charges if you do.
(9) We are not liable for any losses that may result when our
services are unavailable due to reasons beyond our control.
(10) You may use your Account for purchases at
participating retail locations that accept the Card.

Thank you for opening a credit card account with us.
This Customer Agreement, including any changes to it
(“Agreement”), contains the terms of your agreement with
Capital One.

Definitions

The meanings of the terms you see in italics appear in the
Glossary section at the end of this Agreement.
As used here, “you” and “your” mean each applicant and
co-applicant for the Account; any person responsible
for paying the Account; and any person responsible for
complying with this Agreement. “We,” “us,” “our,” and
“Capital One” mean Capital One, National Association;
and its agents, authorized representatives, successors,
and assignees.

Account Documents

The following documents govern your Account with us:
(1) this Agreement;
(2) all Statements;
(3) any privacy notices;
(4) all disclosures and materials provided to you before or
when you opened your Account;
(5) any other documents and disclosures relating to your
Account, including those provided online; and
(6) any future changes we make to any of the above.
Please read these carefully and keep them for future reference.

Promotional Credit Plans

From time to time, we may offer one or more promotional
Credit Plans prior to, or at the time of, your purchase. Only
certain purchases may be eligible for promotional Credit
Plans. These Credit Plans may have special repayment
terms and are conditioned on your timely payment of at
least the required payment amount each Billing Cycle.
1. Waived Interest Charge — With this plan there are no
Interest Charges on your purchase for a specified period.
2. Reduced Rate — With this plan, you will receive a
reduced Annual Percentage Rate (APR) on your
purchase for a specified period.
3. Same as Cash / Monthly Payment — With this plan,
there are no Interest Charges on your purchase if you
repay the full cash price of the purchase before the
promotional expiration date shown on your Statement.
If you do not repay in full by the promotional expiration
date, Interest Charges will be imposed on the
promotional purchase from the purchase date.

New Offers

In the future, we may provide you with new offers that we think
may interest you. The terms of these offers may differ from the
standard terms on your Account. This Agreement will still apply.

Account Information

We need information about you to manage your Account.
This includes:
(1) your legal name;
(2) a valid U.S. mailing address and residential address
(if different);
(3) your date of birth;
(4) your Social Security number or other government
identification number we accept;
(5) your telephone number(s); and
(6) your employment and income information.
You must tell us when this information changes. We may
ask you for additional documents to verify any changes. We
may restrict or close your Account if we cannot verify your
information, or if you do not provide it as requested.

Authorized Users

If you ask us to issue a Card to any other person, they are
an Authorized User. We may require certain information
about them. We may limit their ability to use your Card.
They may have access to certain information about your
Account. You will be responsible for their use of the
Account and anyone else they allow to use your Account,
even if you did not want, or agree to, that use.

Removing an Authorized User

Credit Limit

If you want to remove an Authorized User from your
Account, you must contact Customer Service and request
their removal. You also must immediately destroy all Cards
in their possession and cancel any arrangements they may
have set up on your Account. They will be able to use your
Account until you have notified us that you are removing
them from your Account. During this time, you will still be
responsible for all amounts they charge to your Account.
You will be responsible even if these amounts do not appear
on your Account until later. Authorized Users may remove
themselves from your Account upon request. We reserve the
right to remove them from your Account for any reason. To
remove them from your Account, we may close your existing
Account and issue a new Card with a new Account number.

When you open your Account, we will tell you your credit
limit. This will also appear on your Statement. We may also
refer to your credit limit as your credit line.
You are responsible for keeping track of your balance and
your available credit. You must manage your Account to
remain below your credit limits. We may honor transactions
above your credit limits, but if we do these transactions
will not increase your credit limit. You are responsible for
paying for any transaction you make above your credit limit.
We may also increase, decrease, restrict or cancel your credit
limit at any time. This will not affect your obligation to pay us.

Using Your Account

Your Promise to Pay

(1) This Agreement applies whether or not you use your
Card or Account. It will continue to apply even after your
Account is closed, as long as you have a balance.

You promise to pay us all amounts due on your Account.
This includes amounts where you did not sign a purchase
1

slip or other documents for the transaction. We will treat
transactions made without presenting your actual Card
(such as for mail, telephone, Internet, or mobile device
purchases) the same as if you used the Card in person. If
you let someone else use your Card, you are responsible
for all transactions that person makes.

on your Billing Statement each month, plus any minimum
payment due appearing on your Statement.
For Same as Cash Credit Plans, we will not charge you
interest on your promotional purchase if you repay the full
amount of the purchase before the expiration date shown
on your Statement. If you do not repay the promotional
purchase in full by the expiration date, Interest Charges will
be imposed on the promotional purchase from the date of
the purchase.
We will generally treat Fees as purchase transactions
unless otherwise specified below. These Fees apply to your
Account only if your Truth-in-Lending Disclosures provide
for them. We may increase your Interest Charges and Fees
as described in the Changes to Your Agreement section
or in your Truth-in-Lending Disclosures.

Statements

We will generally send, or make available to you, one
Statement for all Cards on your Account at the end of each
Billing Cycle. Under certain circumstances, the law may not
require us to send, or make available to you, a Statement,
or may prohibit us from doing so.

Disputed Transactions

You must inspect each Statement you receive. Tell us
about any errors or questions you have, as described in
the “Billing Rights Summary” on your Statement and other
Truth-in-Lending Disclosures. If you do not notify us of an
error, we will assume that all information on the Statement
is correct.
If we credit your Account for all or part of a disputed
transaction, you give us all of your rights against others
regarding that transaction. You will also:
(1) give us any information about the disputed transaction,
if we ask;
(2) not pursue any claim or reimbursement of the
transaction amount from the merchant or any other
person; and
(3) help us get reimbursement from others.

Late Payment Fee

We may charge you this Fee if we do not receive your
payment as instructed on your Statement by the payment
due date.

Minimum Payment

You must pay us at least the minimum payment amount by
the payment due date. Your Statement will tell you:
(1) the minimum payment due,
(2) your new balance,
(3) the payment due date, and
(4) an explanation of when the payment must reach us for
us to consider it received as of that date.
Returns and other credits to your Account will reduce your
Account balance, but they will not change your minimum
payment amount.
In addition to the minimum payment, you may pay all or
part of the total balance on your Account. But, you must
still pay at least the minimum payment amount each month,
even if you paid more than the minimum payment due on
the previous Statement. We will continue to charge Interest
Charges during Billing Cycles when you carry a balance
regardless of whether your Statement includes a minimum
payment that is due. If your Account is 180 days past due,
is part of a bankruptcy proceeding or is otherwise charged
off, the total balance is immediately due and payable.

No Warranties

We are not responsible for any claim you may have
regarding the purchase of goods or services made with
your Card beyond your rights described in the “Billing
Rights Summary” on your Statement.

Lost or Stolen Card

If your Card is lost or stolen or if you think someone else
may be using your Card or Account number without
your permission, you must contact Customer Service
immediately. You will not be responsible for transactions on
your Account that we find are unauthorized.
If we reimburse you for unauthorized transactions, you will
help us investigate, pursue and get reimbursement from
the wrongdoer. Your help includes giving us documents in a
form that we request.

Making Payments

Your payment must be made in U.S. dollars from a U.S.
deposit account in a form acceptable to us. We do not
accept cash payments through the mail. You may not make
payments with funds from your Account or any other credit
account with us or any other company in the Capital One
organization. You must send mailed payments to us as
instructed on your Statement, unless we tell you otherwise.

Interest Charges and Fees

We will charge Interest Charges and Fees to your Account
as disclosed on your Statement and other Truth-in-Lending
Disclosures. In general, Interest Charges begin to accrue
on any unpaid amount from the date of the transaction,
date the transaction is processed or the first day of the
Billing Cycle. However, we will not charge you interest
on any new transactions posted to your Account if you
pay your “New Balance” in full by the due date on your
Statement each month. If you did not pay your “New
Balance” in full when due for a Billing Cycle, interest will
continue to accrue between the time that we calculate your
“New Balance,” as reflected on your Statement, and when
we receive your payment. This interest will post on your
next Statement. That is why if you start accruing Interest
Charges, you generally must pay your “New Balance”
in full for two consecutive Billing Cycles before Interest
Charges stop posting to your Statement. If you have a
Waived Interest Charge or Reduced Rate or Same as
Cash Credit Plan balance, we will exclude that promotional
plan balance from the amount you must pay in full to avoid
Interest Charges. However, you must still pay the full
non-promotional purchase Credit Plan balance displayed

Other Payment Services

We may make services available that allow you to make
faster or recurring payments online or by telephone. We
will describe the terms for using these services and any
applicable Fee before you use them. You do not have to
use these other payment services.
We are not responsible if your financial institution rejects a
payment made using our payment services.
If you ask someone else to make a payment for you, we may
provide that person with limited Account information necessary
to set up and process that payment. We may also refuse to
accept that payment. If we do accept it, you will be responsible
for that payment even if a financial institution rejects it.

Payment Processing

We may accept and process payments without losing any
of our rights. We may delay the availability of credit until we
2

confirm that your payment has cleared. This may happen
even if we credit your payment to your Account. We may
resubmit and collect returned payments electronically. If
necessary, we may adjust your Account to correct errors,
process returned and reversed payments, and handle
similar issues.
When you send us an Item as payment, you authorize
us to make a one-time electronic fund transfer from your
deposit account. You also authorize us to process the
payment as an Item. We may withdraw the funds from
your deposit account as early as the same day we receive
your payment. You will not receive your Item back from
your bank. We will provide additional information about this
process on your Statement.
We may use the information from an Item to create an
electronic image. We may collect and return the image
electronically. This electronic image may also be converted
to a substitute check and may be processed in the same
way we would process an Item. We will not be responsible
if an Item you provide has physical features that when
imaged result in it not being processed as you intended.

(2) any payment you make is rejected, not paid or cannot
be processed;
(3) you exceed a credit limit;
(4) you file or become the subject of a bankruptcy or
insolvency proceeding;
(5) you are unable or unwilling to repay your obligations,
including upon death or legally declared incapacity;
(6) we determine that you made a false, incomplete or
misleading statement to us, or you otherwise tried to
defraud us;
(7) you do not comply with any term of this Agreement or
any other agreement with us; or
(8) you permanently reside outside the United States.
If you are in default, we may take certain actions with
respect to your Account. For example, depending on the
default, we may take the following actions, without notifying
you, unless the law says that we must give you notice:
(1) charge you Fees, or change the APRs and Fees on
your Account, if provided in your Truth-in-Lending
Disclosures;
(2) close or suspend your Account;
(3) lower your credit limit(s);
(4) demand that you immediately pay the total balance
owing on your Account;
(5) continue to charge you Interest Charges and Fees as
long as your balance remains outstanding; and/or
(6) file a lawsuit against you, or pursue another action that
is not prohibited by law. If we file a lawsuit, you agree to
pay our court costs, expenses and attorney fees, unless
the law does not allow us to collect these amounts.

How We Apply Your Payments

Your Account may have Credit Plans with different Annual
Percentage Rates (APR). If your Account has Credit
Plan balances with different APRs, here is how we apply
payments in a Billing Cycle:
(1) We generally apply credits and payments up to your
minimum payment first to the balance with the lowest
APR, and then to balances with higher APRs.
(2) We apply any part of your payment exceeding your
minimum payment to the balance with the highest APR,
and then to balances with lower APRs.
If your Account has a Same as Cash Credit Plan balance,
we will treat that balance as having a 0% APR for this
purpose, until the last two Billing Cycles of the promotional
period. During the last two full Billing Cycles of the
promotional period, we will apply payments exceeding the
minimum payment to the Same as Cash Credit Plan(s) that
is expiring, in the order of expiration date.

Communications

You agree that we may communicate with you by mail,
telephone, email, fax, prerecorded message, automated
voice, text message or other means allowed by law
regarding your Account.
You agree that we may contact you at any telephone
number (including a mobile telephone number that you
provide us), and use an automated telephone dialing
system or similar device to do so. You agree that we may
monitor or record any conversation or other communication
with you.

Items with Restrictive Words, Conditions,
or Instructions

Credit Reports

You must mail all Items bearing restrictive words,
conditions, limitations, or special instructions to:
Capital One
P.O. Box 1330
Charlotte, NC 28201-1330
This includes Items marked “Paid in Full” or similar
language. This also includes all accompanying
communications.
If you make such a payment or send any accompanying
communications to any other address, we may reject it
and return it to you. We may also accept it and process it
without losing any of our rights.

We may report information about your Account to credit
bureaus and others. Late payments, missed payments, or
other defaults on your Account may be reflected in your
credit report. Information we provide may appear on your
and the Authorized Users’ credit reports.
If you believe that we have reported inaccurate information
about your Account to a credit bureau or other consumer
reporting agency, notify us in writing at Attn: Credit Bureau
Disputes, Capital One, P.O. Box 30285, Salt Lake City,
UT 84130-0285. When you write, tell us the specific
information that you believe is incorrect and why you
believe it is incorrect.
We may obtain and use credit, income and other
information about you from credit bureaus and others as
the law allows.

Credit Balances

We may reject and return any payment that creates or adds
to a credit balance on your Account. Any credit balance
we allow will not be available until we confirm that your
payment has cleared. We may reduce the amount of any
credit balance by any new charges. You may write to the
address provided on your Statement or call Customer
Service to request a refund of any available credit balance.

Closing or Suspending Your Account

You may contact Customer Service to ask us to close your
Account.
We may close or suspend your Account at any time and for
any reason permitted by law, even if you are not in default.
If we close or suspend your Account for any reason,
you must stop using your Card. You must also cancel all
billing arrangements set up on the Account. If we close or

Account Default

You will be in default if:
(1) you do not make any payment when it is due;
3

Glossary

permanently suspend your Account, you must return or
destroy all Cards. You must still pay us all amounts you
owe on the Account.

• “Account” means your Card Account with us.
• “Authorized User” means a person who may use
the Card, but is not responsible for the repayment of
the Account.
• “Billing Cycle” means the period of time reflected
on a Statement. This period may vary in length, but is
approximately 30 days. You will have a Billing Cycle
even if a Statement is not required. We will often specify
a Billing Cycle by the month in which its closing date
occurs. For example, a “March Billing Cycle” will have a
closing date in March. We may also refer to a Billing Cycle
as a “Billing Period”. If your Account balance has charged
off, we may switch to quarterly Billing Cycles for your
Account.
• “Card” means any Capital One credit card associated
with your Account. This includes all renewals and
substitutions. It also means any other access device for
your Account we give you that allows you to obtain credit,
including any Account number.
• “Credit Plans” mean the different parts of your Account
we may establish that are subject to unique APRs, pricing,
or other terms. The sum of your Credit Plan balances
equals your total Account balance.
• “Fees” means charges imposed on your Account not
based on the Annual Percentage Rates.
• “Interest Charges” means any charges to your Account
based on the application of Annual Percentage Rates.
• “Item” means a check, draft, money order or other
negotiable instrument you use to pay your Account. This
includes any image of these instruments.
• “Statement” means a document showing important
Account information, including all transactions billed to
your Account during a Billing Cycle and information about
what you must pay. We may also refer to your Statement
as a “Periodic Statement” or a “Billing Statement”.
• “Truth-in-Lending Disclosures” means disclosures that
the federal Truth in Lending Act and Regulation Z require for
any Account. This includes your application and solicitation
disclosures, Account opening disclosures, subsequent
disclosures, Statements, and change in terms notices.

Changes to Your Agreement

At any time, we may add, delete or change any term of
this Agreement, unless the law prohibits us from doing so.
We will give you notice of any changes as required by law.
We may notify you of changes on your Statement or in a
separate notice. Our notice will tell you when and how the
changes will take effect. The notice will describe any rights
you have in connection with the changes.
Your variable APRs (if applicable) can go up or down as
the index for the rate goes up or down. If we increase your
APRs for any other reason, or if we change your Fees or
other terms of your Account, we will notify you as required
by law.

The Law That Applies to Your Agreement

We make decisions to grant credit and issue you a Card
from our offices in Virginia. This Agreement is governed
by applicable federal law and by Virginia law. If any part of
this Agreement is unenforceable, the remaining parts will
remain in effect.

Waiver

We will not lose any of our rights if we delay or choose not
to take any action for any reason. We may waive our right
without notifying you. For example, we may waive your
Interest Charges or Fees without notifying you and without
losing our right to charge them in
the future.

Assignment

This Agreement will be binding on, and benefit, any of your
and our successors and assigns. You may not sell, assign
or transfer your Account or this Agreement to someone else
without our written permission.
We may sell, assign or transfer your Account and this
Agreement without your permission and without prior notice
to you. Any assignee or assignees will take our place under
this Agreement. You must pay them and perform all of your
obligations to them and not us. If you pay us after we notify
you that we have transferred your Account or this Agreement,
we can return the payment to you, forward the payment to the
assignee, or handle it in another way that is reasonable.

BR411789

M-131724

© 2021 Capital One
Capital One is a federally registered service mark.
All rights reserved.
4

COF Customer Agreement 434

